Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




UPDATE: EXCESSIVE MEDICARE
    REIMBURSEMENT FOR
   IPRATROPIUM BROMIDE




                    Inspector General

                     January 2004
                    OEI-03-03-00520
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
State Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                                         S U M M A R Y 




                              OBJECTIVE
                              To update data provided in a 2002 report comparing Medicare
                              reimbursement for ipratropium bromide to prices available to
                              Medicaid, the supplier community, and the Department of
                              Veterans Affairs (VA).


                              BACKGROUND
                              Ipratropium bromide is an inhalation drug commonly used with
                              a nebulizer to treat patients suffering from chronic bronchitis or
                              emphysema. Prior to 2004, Medicare’s reimbursement
                              methodology for ipratropium bromide and other prescription
                              drugs was set forth in section 1842(o) of the Social Security Act,
                              as amended by section 4556 of the Balanced Budget Act of 1997.
                              At the time, reimbursement for a covered drug was set at 95
                              percent of the drug’s average wholesale price (AWP). Recently,
                              the Medicare Prescription Drug, Improvement, and
                              Modernization Act of 2003 lowered reimbursement for many
                              Part B drugs, including ipratropium bromide. In 2004,
                              Medicare reimbursement for ipratropium bromide will be 80
                              percent of AWP.
                              Medicare beneficiaries are responsible for paying a 20 percent
                              coinsurance payment for covered drugs. In calendar year (CY)
                              2002, Medicare and its beneficiaries paid $594 million for
                              ipratropium bromide, up from $348 million in CY 2000.
                              Ipratropium bromide is usually provided to Medicare
                              beneficiaries by pharmacies, which then submit claims for
                              reimbursement to Medicare. Medicaid beneficiaries also obtain
                              ipratropium bromide through pharmacies. Pharmacies can
                              purchase drug products through group purchasing organizations
                              (GPOs), wholesalers, and directly from manufacturers. Unlike
                              Medicare and Medicaid, VA provides veterans with drugs
                              purchased directly from manufacturers or wholesalers. There
                              are several purchase options available to VA, including the
                              Federal Supply Schedule, blanket purchase agreements, and VA
                              national contracts.
                              We obtained Medicare’s CY 2003 reimbursement amount for
                              ipratropium bromide. For comparison, we: (1) obtained
                              Medicaid’s 2003 reimbursement amount for ipratropium

O E I - 03 - 03 - 0 0 5 2 0   UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   i
E   X   E      C      U       T       I   V   E         S      U      M      M       A      R      Y


                                              bromide by reviewing the Federal Upper Limit list,
                                              (2) estimated 2003 pharmacy acquisition costs for ipratropium
                                              bromide by obtaining pricing information from a national
                                              wholesaler/distributor and a GPO, and (3) determined the VA’s
                                              2003 payment amount for ipratropium bromide by accessing
                                              pricing data available on its website. We also obtained
                                              manufacturer-reported wholesale acquisition costs (WACs) from
                                              the January 2003 edition of the Drug Topics Red Book. We
                                              calculated potential savings by multiplying Medicare’s 2002
                                              total payments for ipratropium bromide by the percentage
                                              difference between the Medicare reimbursement amount and
                                              the Medicaid reimbursement amount.
                                              The exact savings estimates presented in this report are for
                                              2002. Because the 2004 reimbursement amount for ipratropium
                                              bromide was lowered to 80 percent of AWP from 95 percent of
                                              AWP, the savings that Medicare would achieve by paying the
                                              Medicaid Federal Upper Limit Amount would now be lower.
                                              However, the difference in price between Medicare and Medicaid
                                              would still be large, and significant savings would still result if
                                              Medicare were able to reimburse ipratropium bromide at the
                                              Federal Upper Limit amount.


                                              FINDINGS
                                              Medicare continues to pay more for ipratropium bromide
                                              than other payors, costing the program and its beneficiaries
                                              millions of dollars a year. In 2003, the Centers for Medicare &
                                              Medicaid Services (CMS) set the Medicaid Federal Upper Limit
                                              amount for ipratropium bromide at $1.17 per milligram (mg), 65
                                              percent less than the $3.34 that Medicare pays for the same
                                              amount of the drug. If Medicare could reimburse for
                                              ipratropium bromide at the Medicaid Federal Upper Limit
                                              Amount, Medicare and its beneficiaries would have saved $386
                                              million in 2002. Approximately $77 million of the savings would
                                              have resulted from reduced coinsurance payments.
                                              Data collected from a drug wholesaler/distributor and a GPO
                                              showed that pharmacies were able to purchase ipratropium
                                              bromide for substantially less than the Medicare reimbursement
                                              amount. In spring 2003, the median price of ipratropium
                                              bromide at the wholesaler/distributor was $0.57 per mg, while it
                                              was $0.05 higher ($0.62 per mg) at the GPO. Medicare’s

        O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   ii
E    X      E      C       U      T   I   V    E            S      U      M      M       A      R      Y


                                          reimbursement amount of $3.34 per mg was over five times
                                          more for the same amount of the drug. We did not collect data
                                          from pharmacies regarding any additional costs related to
                                          providing ipratropium bromide to Medicare beneficiaries.
                                          Furthermore, manufacturer-reported WACs published in the
                                          Red Book also showed that pharmacies were able to purchase
                                          ipratropium bromide for prices substantially below the Medicare
                                          reimbursement amount. In January 2003, the median WAC
                                          reported in the Red Book was $1.01 per mg.
                                          If Medicare were able to use prices available to the supplier
                                          community as a basis for ipratropium bromide reimbursement,
                                          the program and its beneficiaries would save millions of dollars
                                          a year.
                                          Since our 2002 report, which was based on 2001 data, the price
                                          at which ipratropium bromide was available to the supplier
                                          community had decreased, while the Medicare reimbursement
                                          amount had remained the same. In 2001, we calculated that the
                                          median price of ipratropium bromide through
                                          wholesaler/distributors and GPOs was $0.82 per mg,
                                          substantially higher than 2003 prices. In addition,
                                          manufacturer-reported WACs also decreased, from a median of
                                          $1.20 per mg in 2001 to $1.01 in 2003.
                                          The median Federal Supply Schedule price available to VA for
                                          ipratropium bromide was $0.39 per mg. In comparison,
                                          Medicare reimbursed 8 times more ($0.47 per mg) for the same
                                          amount of the drug in 2003. However, it should be noted that,
                                          unlike Medicare, VA purchases drugs for its health care system
                                          directly from manufacturers or wholesalers, rather than
                                          reimbursing pharmacies for the drug.
                                          The VA price for ipratropium bromide has decreased
                                          substantially since our previous report, while Medicare’s price
                                          has remained constant. The VA price has fallen from $0.66 per
                                          mg in 2001 to $0.39 per mg in 2003 (in 1998, the VA price was
                                          even higher at $1.29 per mg).


                                          CONCLUSION
                                          Despite numerous attempts by CMS to lower reimbursement
                                          amounts for prescription drugs, Medicare still pays a high


    O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   iii
E   X    E      C       U         T   I   V      E           S      U      M       M      A      R       Y

                                              premium for ipratropium bromide. This report is part of a series
                                              of reports on ipratropium bromide that have consistently found
                                              that the published average wholesale prices, which, as
                                              prescribed by Federal law, form the basis of Medicare drug
                                              reimbursement, bear little or no resemblance to actual
                                              wholesale prices that are available to pharmacies and large
                                              Government purchasers.
                                              Because of Medicare’s reliance on published average wholesale
                                              prices, the program’s reimbursement remains constant, despite
                                              the fact that other purchasers pay significantly less for
                                              ipratropium bromide than they did several years ago. In
                                              addition, Medicare’s total reimbursement for ipratropium
                                              bromide continues to increase substantially each year.
                                              Consequently, the Medicare program loses progressively more
                                              money every year.
                                              We understand that, unlike most drugs covered by Medicare,
                                              ipratropium bromide is usually provided by pharmacies rather
                                              than administered by physicians. These pharmacies obviously
                                              need to make a profit from the products they supply, yet the
                                              spread between what Medicare reimburses for ipratropium
                                              bromide and the price at which suppliers are able to purchase
                                              the drug is significant.
                                              Furthermore, we recognize that the VA acts as a purchaser of
                                              drugs while Medicare reimburses pharmacies for the product.
                                              However, the fact that one Government agency is able to
                                              purchase a drug for one-eighth of Medicare’s reimbursement
                                              amount is disconcerting.
                                              Congress has recently passed the Medicare Prescription Drug,
                                              Improvement, and Modernization Act of 2003 (Act). This Act
                                              provides for numerous changes in Medicare’s reimbursement
                                              methodology for drugs covered under Part B, including
                                              ipratropium bromide. Based on the new Act, Medicare will
                                              reimburse ipratropium bromide at 80 percent of AWP in 2004.
                                              We hope that the data presented in this report is helpful to CMS
                                              in determining an appropriate payment amount for the drug
                                              beyond 2004.




    O E I - 03 - 03 - 0 0 5 2 0               UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   iv
T A B L E                            O F             C O N T E N T S 




                     E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i





                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     FINDINGS

                          Medicare continues to pay more than other payors ................................... 7




                     CONCLUSION                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10





                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11





O E I - 03 - 03 - 0 0 2 5 0                         M E D I C A R E R E I M B U R S E M E N T F OR I P R A T R O P I U M B R O M I D E                v

I N T R O D U C T I O N 





                              OBJECTIVE
                              To update data provided in a 2002 report comparing Medicare
                              reimbursement for ipratropium bromide to prices available to
                              Medicaid, the supplier community, and the Department of
                              Veterans Affairs (VA).


                              BACKGROUND
                              Medicare Coverage of Ipratropium Bromide
                              Currently, Medicare does not pay for over-the-counter or most
                              outpatient prescription drugs. However, Medicare Part B will
                              cover drugs that are necessary for the effective use of durable
                              medical equipment. One such product, ipratropium bromide, is
                              an inhalation solution commonly used with a nebulizer to treat
                              patients suffering from chronic bronchitis or emphysema.
                              Ipratropium bromide is typically provided to Medicare
                              beneficiaries by pharmacies.
                              Medicare Reimbursement of Ipratropium Bromide
                              The Centers for Medicare & Medicaid Services (CMS) contracts
                              with four companies, known as durable medical equipment
                              regional carriers (DMERCs), to process and reimburse medical
                              equipment and supply claims, including ipratropium bromide.
                              Each DMERC is responsible for determining the reimbursement
                              amount for ipratropium bromide in their respective region,
                              based on Medicare’s reimbursement methodology.
                              Prior to 2004, Medicare=s reimbursement methodology for
                              ipratropium bromide and other prescription drugs was set forth
                              in section 1842(o) of the Social Security Act, as amended by
                              section 4556 of the Balanced Budget Act of 1997. At the time,
                              the Social Security Act stated that reimbursement for a covered
                              drug was to be set at 95 percent of the drug’s average wholesale
                              price (AWP). CMS directed carriers to obtain average wholesale
                              price data from the Drug Topics Red Book or similar pricing
                              publications used by the pharmaceutical industry. In 2003, each
                              DMERC reimbursed $3.34 per milligram (mg) for ipratropium
                              bromide.
                              Recently, the Medicare Prescription Drug, Improvement, and
                              Modernization Act of 2003 (Act) lowered payments for many

O E I - 03 - 03 - 0 0 5 2 0   UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   1
I   N   T    R       O      D         U   C   T    I    O      N


                                              Part B drugs in 2004 and beyond by revising Section 1842(o) of
                                              the Social Security Act. According to the new Act, the payment
                                              for a drug contained in the table, “Medicare Part B Drugs in
                                              Most Recent GAO and OIG Studies” published in the Federal
                                              Register (68 FR 50445) will be the percentage of the AWP
                                              indicated in the table. If the percentage in the table is less than
                                              80 percent, then the percentage applied to reimbursement will
                                              be 80 percent. Based on the data presented in this table, in
                                              2004, Medicare reimbursement for ipratropium bromide will be
                                              80 percent of AWP.
                                              Medicare paid $594 million for ipratropium bromide in calendar
                                              year (CY) 2002, up from $348 million in 2000. This total
                                              represents 7 percent of the $8.2 billion Medicare paid for all
                                              prescription drugs in 2002. Medicare payments include both the
                                              80 percent that Medicare reimburses, and the 20 percent
                                              coinsurance payment for which beneficiaries are responsible.
                                              CMS Use of Office of Inspector General (OIG) Data
                                              In a proposed rule published in the Federal Register on August
                                              20, 2003 CMS states, “If the OIG performs a new market
                                              analysis, we expect to incorporate this information into the
                                              Medicare payment limits…Initially, we would use the market
                                              analyses available to us from GAO and OIG studies to transition
                                              widely available market prices into the Medicare payments.”
                                              Because of the passage of the Medicare Prescription Drug,
                                              Improvement, and Modernization Act of 2003, the proposed rule
                                              did not take effect. However, according to the Act, new pricing
                                              data may be useful for setting Medicare reimbursement
                                              amounts in the future.

                                              Recent Attempts to Lower Medicare Reimbursment
                                              Inherent Reasonableness. Section 4316 of the Balanced Budget
                                              Act of 1997 allows CMS to diverge from Medicare=s statutorily-
                                              defined payment method if the method results in payment
                                              amounts that are not inherently reasonable. In late 1998, CMS
                                              attempted to use this authority to lower what it considered
                                              excessive reimbursement for several items. One of these items
                                              was albuterol, an inhalation drug similar to ipratropium
                                              bromide, which was targeted for an 11 percent fee reduction.
                                              However, the lower prices were never implemented, as Congress
                                              suspended the use of CMS’s inherent reasonableness authority
                                              through a provision of the Medicare, Medicaid, and SCHIP


        O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   2
I   N   T    R       O      D         U   C   T    I    O      N


                                              Balanced Budget Refinement Act of 1999. This provision
                                              required the General Accounting Office (GAO) to complete a
                                              study on the potential effects of using inherent reasonableness
                                              measures before CMS could invoke the authority. The GAO
                                              report, issued in July 2000, found that inherent reasonableness
                                              reductions for some items were justified. However, GAO
                                              questioned the methodology that the carriers used in their
                                              collection of pricing data for albuterol.
                                              On February 11, 2003, a new interim final rule for the
                                              application of inherent reasonableness went into effect.
                                              According to the regulation, payment amounts may be
                                              considered unreasonable based on a number of criteria,
                                              including: (1) payment amounts are grossly excessive when
                                              compared to other purchasers in the same locality, or (2)
                                              payment amounts are grossly excessive when compared to
                                              acquisition costs. According to the regulation, a payment
                                              amount is considered grossly excessive if a reduction of at least
                                              15 percent is required to produce a realistic and equitable
                                              reimbursement amount.
                                              Competitive Bidding. CMS included ipratropium bromide and
                                              several other inhalation drugs in a competitive bidding project
                                              in the San Antonio, Texas area that sought to use market forces
                                              to set accurate prices for durable medical equipment and related
                                              supplies. In November 2000, CMS announced the selection of
                                              durable medical equipment suppliers who had submitted
                                              competitive bids for the included items. New prices for these
                                              items went into effect in the bidding area on February 1, 2001.
                                              The new reimbursement amount for ipratropium bromide set by
                                              the competitive bidding process was $2.55 per mg,
                                              approximately 24 percent below the usual Medicare amount.
                                              CMS hopes to use the results from these demonstrations more
                                              generally in the Medicare program.
                                              Medicaid Reimbursement of Ipratropium Bromide
                                              As with Medicare, Medicaid beneficiaries typically receive
                                              ipratropium bromide from pharmacies. Pharmacies are then
                                              reimbursed by the Medicaid program.

                                              Federal regulations require that each State Medicaid agency’s
                                              reimbursement for a drug not exceed the lower of its estimated
                                              acquisition cost plus a reasonable dispensing fee, or the
                                              provider’s usual and customary charge to the public for the

        O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   3
I   N      T      R      O        D   U   C     T      I    O      N


                                          drug. CMS allows States flexibility in defining estimated
                                          acquisition cost. Like Medicare, most States base their
                                          calculation of estimated acquisition cost on a drug’s AWP
                                          discounted by a certain percentage. This discount ranged from 5
                                          percent to 15 percent in the year 2001. A few States use
                                          published wholesale acquisition costs (WACs) plus a percentage
                                          markup rather than average wholesale prices when calculating
                                          estimated acquisition cost.
                                          For certain drugs, States also use the Federal Upper Limit and
                                          State Maximum Allowable Cost programs in determining
                                          reimbursement amounts. According to CMS, the purpose of
                                          Federal Upper Limits is to ensure that the Federal Government
                                          acts as a prudent purchaser by taking advantage of current
                                          market prices for multiple-source products. CMS has
                                          established Federal Upper Limit amounts for over 400 drugs. In
                                          addition, more than half of the States have implemented a
                                          Maximum Allowable Cost program in order to reduce
                                          reimbursement amounts for certain drugs. Individual States
                                          determine the types of drugs that are included in their
                                          Maximum Allowable Cost program, and the method by which
                                          the Maximum Allowable Cost for a drug is calculated.
                                          Acquisition Sources of Ipratropium Bromide for Pharmacies
                                          Pharmacies can purchase drug products through several
                                          sources, including group purchasing organizations (GPOs),
                                          wholesalers/distributors, and directly from manufacturers.
                                          GPOs provide their members with lower cost products by
                                          negotiating prices for specific drugs from manufacturers. The
                                          member can then purchase drugs at the negotiated price either
                                          directly from the manufacturer or from a wholesaler/distributor
                                          who accepts GPO’s price. Wholesalers/distributors purchase
                                          large volumes of drugs from manufacturers and sell them
                                          directly to physicians, suppliers, and pharmacies.

                                          VA Payments for Ipratropium Bromide
                                          Unlike Medicare and Medicaid, VA purchases drugs for its
                                          health care system directly from manufacturers or wholesalers.
                                          There are several options available to VA when purchasing
                                          drugs, with the most common being the Federal Supply
                                          Schedule. The Federal Supply Schedule provides agencies like
                                          VA with a simple process for purchasing commonly-used
                                          products in any quantity while still obtaining the discounts


    O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   4
I   N   T    R       O      D         U   C   T    I    O      N


                                              associated with volume buying. Using competitive procedures,
                                              contracts are awarded to companies to provide supplies over a
                                              given period of time at the Federal Supply Schedule price.
                                              However, VA is sometimes able to negotiate prices lower than
                                              Federal Supply Schedule amounts through other avenues, such
                                              as blanket purchase agreements and VA national contracts.
                                              Related Work on Ipratropium Bromide
                                              OIG has previously found that Medicare’s usual reimbursement
                                              amount for ipratropium bromide (based on AWP) is excessive.
                                              In our report Excessive Medicare Reimbursement for
                                              Ipratropium Bromide (March 2002), we calculated that the
                                              Medicare reimbursement amount for ipratropium bromide in
                                              2000 was more than 5 times higher than the VA purchase price
                                              and over 4 times the actual acquisition cost to pharmacies.
                                              According to our findings, excessive reimbursement for
                                              ipratropium bromide alone was costing Medicare and its
                                              beneficiaries up to $279 million per year.

                                              In addition to OIG, GAO has also found that Medicare
                                              reimbursement for ipratropium bromide is excessive. In its
                                              September 2001 report, Medicare: Payments for Covered
                                              Outpatient Drugs Exceed Providers’ Costs (GAO-01-1118), GAO
                                              found that the average widely available price to pharmacies for
                                              ipratropium bromide was 78 percent below the published
                                              average wholesale price of the drug.


                                              METHODOLOGY
                                              We reviewed laws and regulations concerning Medicare drug
                                              reimbursement. We accessed CMS’s Part B Extract Summary
                                              System to determine Medicare’s total payments for ipratropium
                                              bromide in CY 2002. We obtained Medicare’s CY 2003
                                              reimbursement amounts for ipratropium bromide from all 4
                                              DMERCs.
                                              To determine Medicaid’s 2003 reimbursement amount for
                                              ipratropium bromide, we obtained pricing information for the
                                              drug from the Medicaid Federal Upper Limit list.
                                              To estimate pharmacy acquisition costs for ipratropium
                                              bromide, we obtained spring 2003 pricing information for the
                                              drug from a national wholesaler/distributor and from a GPO. As
                                              an additional estimate of pharmacy acquisition costs, we also


        O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   5
I   N   T    R       O      D         U   C   T    I    O      N


                                              obtained manufacturer-reported WACs from the January 2003
                                              edition of the Red Book. The Red Book defines WACs as
                                              manufacturer-quoted list prices to wholesale distributors. These
                                              prices are not reflective of bids, rebates, volume purchase
                                              agreements, or other types of exclusive contracts.
                                              To determine the VA’s 2003 payment amounts for ipratropium
                                              bromide, we accessed a file on their website that lists prices
                                              available to the agency through the Federal Supply Schedule.
                                              To calculate potential Medicare savings based on Medicaid, we
                                              compared Medicare’s reimbursement amount for 1 mg of
                                              ipratropium bromide to the Medicaid Federal Upper Limit
                                              amount. We determined the percentage difference in price by
                                              subtracting Medicaid’s price from Medicare’s price and then
                                              dividing the result by the Medicare price. This percentage
                                              indicates how much Medicare would save if the program could
                                              base reimbursement on the Medicaid Federal Upper Limit
                                              amount. We then multiplied the percentage difference by the
                                              total amount Medicare paid for ipratropium bromide in 2002 to
                                              calculate dollar savings.
                                              The exact savings estimates presented in this report are for
                                              2002. Because the 2004 reimbursement amount for ipratropium
                                              bromide was lowered to 80 percent of AWP from 95 percent of
                                              AWP, the savings that Medicare would achieve by paying the
                                              Medicaid Federal Upper Limit amount would now be lower.
                                              However, the difference in price between Medicare and Medicaid
                                              would still be large, and significant savings would still result if
                                              Medicare were able to reimburse ipratropium bromide at the
                                              Federal Upper Limit amount.


                                              This study was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President=s Council on
                                              Integrity and Efficiency.




        O E I - 03 - 03 - 0 0 5 2 0           UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   6
       F I N D I N G S 




                         In 2003, Medicare reimbursed $3.34 per mg for ipratropium
                         bromide, an amount that was considerably higher than the
                         reimbursement amounts of other Government payors and the
                                                          prices available to the supplier
Medicare continues to pay more for ipratropium
                                                          community. If Medicare were
bromide than other payors, costing the program
                                                          able to base its reimbursement
  and its beneficiaries millions of dollars a year.       amount for ipratropium
                         bromide on prices available to these sources, the program and
                         its beneficiaries could have saved millions of dollars in 2002.
                         Chart 1 below compares the Medicare reimbursement amount to
                         prices available to Medicaid, the supplier community, and VA.


                                                                          Chart 1: Comparison of Ipratropium Bromide Prices

                                                $4.00


                                                $3.50                                                                                                                         $3.34


                                                $3.00


                                                $2.50
                                       Amount




                                                $2.00


                                                $1.50
                                                                                                                                                            $1.17
                                                                                                                                     $1.01
                                                $1.00
                                                                                       $0.57                  $0.62
                                                $0.50            $0.39


                                                $0.00
                                                              Median VA              Median              Median GPO               Median WAC            Medicaid             Medicare
                                                                                    Wholesaler                                                        Federal Upper
                                                                                                                                                          Limit


                                     Source: VA website, OIG survey of pharmacy prices, 2003 Red Book , Medicaid Federal Upper Limit list, and
                                     DMERC pricing publications.




                                                        Medicare and its beneficiaries would have saved $386 million in 2002 if
                                                        the program were able to reimburse ipratropium bromide at the
                                                        Medicaid Federal Upper Limit amount.


                                                        CMS sets the Medicaid Federal Upper Limit amount for
                                                        ipratropium bromide at $1.17 per mg, 65 percent less than
                                                        Medicare ($3.34 per mg) for the same amount of the drug. If
                                                        Medicare were able to reimburse for ipratropium bromide at the

       O E I - 03 - 03 - 0 0 5 2 0                      UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E              7
F   I   N    D       I    N       G   S


                                          Medicaid Federal Upper Limit amount, the program would have
                                          saved $386 million in 2002. Approximately $77 million of the
                                          savings would have had a direct impact on Medicare
                                          beneficiaries through reduced coinsurance payments.
                                          The Medicare reimbursement amount for ipratropium bromide was five
                                          times higher than the median price available to the supplier
                                          community.
                                          Data collected from a drug wholesaler/distributor and a GPO
                                          showed that pharmacies were able to purchase ipratropium
                                          bromide for substantially less than the Medicare reimbursement
                                          amount. In spring 2003, generic versions of ipratropium
                                          bromide were available from these sources at prices ranging
                                          from a low of $0.40 per mg to a high of $0.79 per mg. The
                                          median price of ipratropium bromide at the
                                          wholesaler/distributor was $0.57 per mg, while it was $0.05
                                          higher ($0.62 per mg) at GPO. Medicare’s reimbursement
                                          amount of $3.34 per mg was over five times more for the same
                                          amount of the drug.

                                          Pharmacies were able to acquire ipratropium bromide for less
                                          than a Medicare beneficiary would pay in coinsurance alone
                                          ($0.67 per mg). For example, a beneficiary, using a typical
                                          monthly supply of ipratropium bromide (50 mg), would pay
                                          $33.40 in Medicare coinsurance. Through the sources we
                                          identified, pharmacies, on average, would pay between $28.50
                                          and $31.00 for the same supply. We did not collect data from
                                          pharmacies regarding any additional costs related to providing
                                          ipratropium bromide to Medicare beneficiaries.
                                          Furthermore, manufacturer-reported WACs published in the
                                          Red Book also showed that pharmacies were able to purchase
                                          ipratropium bromide for prices substantially below the Medicare
                                          reimbursement amount. In January 2003, the median WAC
                                          reported in the Red Book was $1.01 per mg. The Red Book
                                          defines WAC as manufacturer-quoted list prices to wholesale
                                          distributors, not reflective of bids, rebates, volume purchase
                                          agreements, or other types of exclusive contracts.
                                          Since our last report, the price at which ipratropium bromide
                                          was available to the supplier community decreased, while the
                                          Medicare reimbursement amount remained the same. In 2001,
                                          we calculated that the median price of ipratropium bromide
                                          through wholesaler/distributors and GPOs was $0.82 per mg,

        O E I - 03 - 03 - 0 0 5 2 0       UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   8
F   I   N    D       I    N       G   S


                                          substantially higher than 2003 prices. In addition,
                                          manufacturer-reported WACs had also decreased from a median
                                          of $1.20 per mg in 2001 to $1.01 in 2003.
                                          If Medicare were able to use prices available to the supplier
                                          community as a basis for ipratropium bromide reimbursement,
                                          the program and its beneficiaries would save millions of dollars
                                          a year.
                                          The Medicare reimbursement amount for ipratropium bromide was
                                          eight times higher than the median price available to the VA.
                                          In 2003, the median Federal Supply Schedule price available to
                                          VA for ipratropium bromide was $0.39 per mg. In comparison,
                                          Medicare reimbursed eight times more ($3.34 per mg) for the
                                          same amount of the drug. However, it should be noted that,
                                          unlike Medicare, VA purchases drugs for its health care system
                                          directly from manufacturers or wholesalers, rather than
                                          reimbursing pharmacies for the drug.

                                          The VA price for ipratropium bromide decreased substantially
                                          since our previous report, while Medicare’s price has remained
                                          constant. The VA price has fallen from $0.66 per mg in 2001 to
                                          the 2003 price of $0.39 per mg (in 1998, the VA price was even
                                          higher at $1.29 per mg).




        O E I - 03 - 03 - 0 0 5 2 0       UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   9
C O N C L U S I O N 





                              Despite numerous attempts by CMS to lower reimbursement
                              amounts for prescription drugs, Medicare still pays a high
                              premium for ipratropium bromide. This report is part of a series
                              of reports on ipratropium bromide that have consistently found
                              that the published AWPs, which, as prescribed by Federal law,
                              form the basis of Medicare drug reimbursement, bear little or no
                              resemblance to actual wholesale prices that are available to
                              pharmacies and large Government purchasers.
                              Because of Medicare’s reliance on published AWPs, the
                              program’s reimbursement remains constant, despite the fact
                              that other purchasers pay significantly less for ipratropium
                              bromide than they did several years ago. In addition,
                              Medicare’s total reimbursement for ipratropium bromide
                              continues to increase substantially each year. Consequently,
                              the Medicare program loses progressively more money every
                              year.
                              We understand that, unlike most drugs covered by Medicare,
                              ipratropium bromide is provided by pharmacies rather than
                              administered by physicians. These pharmacies obviously need
                              to make a profit from the products they supply, yet the spread
                              between what Medicare reimburses for ipratropium bromide
                              and the price that suppliers pay for the drug is significant.
                              Furthermore, we recognize that the VA acts as a purchaser of
                              drugs while Medicare reimburses pharmacies for the product.
                              However, the fact that one Government agency is able to
                              purchase a drug for one-eighth of Medicare’s reimbursement
                              amount is disconcerting.
                              Congress has recently passed the Medicare Prescription Drug,
                              Improvement, and Modernization Act of 2003 (Act). This Act
                              provides for numerous changes in Medicare’s reimbursement
                              methodology for drugs covered under Part B, including
                              ipratropium bromide. Based on the new Act, Medicare will
                              reimburse ipratropium bromide at 80 percent of AWP in 2004.
                              We hope that the data presented in this report is helpful to CMS
                              in determining an appropriate payment amount for the drug
                              beyond 2004.


O E I - 03 - 03 - 0 0 5 2 0   UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   10
A C K N O W L E D G M E N T S 





                              This report was prepared under the direction of Robert A Vito,
                              Regional Inspector General for Evaluation and Inspections in
                              the Philadelphia Regional Office, and Linda M. Ragone, Deputy
                              Regional Inspector General. Other principal Office of
                              Evaluation and Inspections staff who contributed include:
                              David Tawes, Team Leader

                              Cynthia Hansford, Program Assistant

                              Linda Frisch, Program Specialist




O E I - 03 - 03 - 0 0 5 2 0   UP D A T E : EX C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   I P R A T R O P I U M BR O M I D E   11
